Monthly Update Report Data (sheet 1 of 5) Version 5.0a
                   Reporting OIG: Department of State - OIG
               Month Ending Date: 03/31/2011

                                                               Recovery Act Funds Used on Recovery Act Activity
             Agency / Bureau        Recovery Act TAFS        Award Type       US Indicator       Total Obligations     Total Gross         Direct or           Ordering TAFS
No.                                                                                                                      Outlays         Reimbursable
      Department of State - OIG    (19-0530 2009 \         Contracts and         Y - US              $27,070            $27,070
                                   2010) State - OIG -    Orders (including
                                   Recovery Act            modifications)
 1                                                                                                                                     Direct            N/A
      Department of State - OIG    (19-0530 2009 \         Contracts and         Y - US             $129,409           $129,409
                                   2010) State - OIG -    Orders (including
                                   Recovery Act            modifications)
 2                                                                                                                                     Direct            N/A
      Department of State - OIG    (19-0530 2009 \         Contracts and         Y - US              $17,129            $17,129
                                   2010) State - OIG -    Orders (including
                                   Recovery Act            modifications)
 3                                                                                                                                     Direct            N/A
      Department of State - OIG    (19-0530 2009 \        Contracts and          Y - US              $94,502            $94,502
                                   2010) State - OIG -    Orders (including
 4                                 Recovery Act           modifications)                                                               Direct            N/A
      Department of State - OIG    (19-0530 2009 \        Contracts and          Y - US             $118,799            $62,877
                                   2010) State - OIG -    Orders (including
 5                                 Recovery Act           modifications)                                                               Direct            N/A
      Department of State - OIG    (19-0530 2009 \        Contracts and          Y - US              $54,949            $54,949
                                   2010) State - OIG -    Orders (including
 6                                 Recovery Act           modifications)                                                               Direct            N/A
      Department of State - OIG    (19-0530 2009 \        Contracts and          Y - US             $148,281           $148,281
                                   2010) State - OIG -    Orders (including
 7                                 Recovery Act           modifications)                                                               Direct            N/A
      Department of State - OIG    (19-0530 2009 \        Contracts and          Y - US              $88,574            $76,737
                                   2010) State - OIG -    Orders (including
 8                                 Recovery Act           modifications)                                                               Direct            N/A
      Department of State - OIG    (19-0530 2009 \        Contracts and          Y - US              $46,520            $46,520
                                   2010) State - OIG -    Orders (including
 9                                 Recovery Act           modifications)                                                               Direct            N/A
      Department of State - OIG    (19-0530 2009 \        Contracts and          Y - US             $132,326            $66,799
                                   2010) State - OIG -    Orders (including
10                                 Recovery Act           modifications)                                                               Direct            N/A
      Department of State - OIG    (19-0530 2009 \        Contracts and          Y - US              $95,137            $49,332
                                   2010) State - OIG -    Orders (including
11                                 Recovery Act           modifications)                                                               Direct            N/A
      Department of State - OIG    (19-0530 2009 \        Contracts and          Y - US             $167,602           $164,528
                                   2010) State - OIG -    Orders (including
12                                 Recovery Act           modifications)                                                               Direct            N/A
      Department of State - OIG    (19-0530 2009 \        Contracts and          Y - US             $467,133           $467,133
                                   2010) State - OIG -    Orders (including
13                                 Recovery Act           modifications)                                                               Direct            N/A
      Department of State - OIG    (19-0530 2009 \        Contracts and          Y - US              $16,724            $16,724
                                   2010) State - OIG -    Orders (including
14                                 Recovery Act           modifications)                                                               Direct            N/A
      Department of State - OIG    (19-0530 2009 \        Contracts and          Y - US              $17,601            $17,601
                                   2010) State - OIG -    Orders (including
15                                 Recovery Act           modifications)                                                               Direct            N/A
      Department of State - OIG    (19-0530 2009 \        Contracts and          Y - US                $73                $73
                                   2010) State - OIG -    Orders (including
16                                 Recovery Act           modifications)                                                               Direct            N/A
      Department of State - OIG    (19-0530 2009 \        Contracts and          Y - US              $20,536            $20,536
                                   2010) State - OIG -    Orders (including
17                                 Recovery Act           modifications)                                                               Direct            N/A
      Department of State - OIG    (19-0530 2009 \        Contracts and          Y - US              $11,706            $11,706
                                   2010) State - OIG -    Orders (including
18                                 Recovery Act           modifications)                                                               Direct            N/A

                                                                              Non-Recovery Act Funds Used on Recovery Act Activity
             Agency / Bureau          FY 2009 Non-          Total FY 2009     Total FY 2009    FY 2010 Non-Recovery   Total FY 2010      Total FY 2010       FY 2011 Non-         Total FY 2011   Total FY 2011
No.                                 Recovery Act TAFS        Obligations      Gross Outlays          Act TAFS          Obligations       Gross Outlays     Recovery Act TAFS       Obligations    Gross Outlays
      Department of State - OIG    (19-0529 2009) State             $59,536          $59,536 (19-0529 2010) State -         $105,056            $105,056 (19-0529 2011) State -         $89,233         $89,233
 1                                 - OIG                                                     OIG                                                         OIG
 2
 3
 4
 5
 6
 7
 8

                                                 Non-Recovery Act Funds Used on Recovery Act Activity
             Agency / Bureau          FY 2012 Non-          Total FY 2012     Total FY 2012    FY 2013 Non-Recovery   Total FY 2013      Total FY 2013
No.                                 Recovery Act TAFS        Obligations      Gross Outlays          Act TAFS          Obligations       Gross Outlays
      Department of State - OIG    (19-0529 2012) State             $97,578          $97,578
 1                                 - OIG
 2
 3
 4
 5
 6
 7
 8
Monthly Update Report Data (sheet 2 of 5) Version 5.0a
     Reporting OIG: Department of State - OIG

 Month Ending Date: 3/31/2011


                                                                Fiscal Year 2009
                             Monetary Results -Investigations             Monetary Results - Audits, Inspections, Reviews*
                                 Recoveries (FY 09):                           Questioned Costs (FY 09):
                        Forfeitures/Seizures (FY 09):                         Unsupported Costs (FY 09):
                                                                         Recommendations for Better Use
                          Estimated Savings (FY 09):
                                                                                       of Funds (FY 09):



                                                                Fiscal Year 2010
                             Monetary Results -Investigations             Monetary Results - Audits, Inspections, Reviews*
                                 Recoveries (FY 10):                           Questioned Costs (FY 10):
                        Forfeitures/Seizures (FY 10):                         Unsupported Costs (FY 10):
                                                                         Recommendations for Better Use
                          Estimated Savings (FY 10):
                                                                                       of Funds (FY 10):

                                                                Fiscal Year 2011
                             Monetary Results -Investigations             Monetary Results - Audits, Inspections, Reviews*
                                 Recoveries (FY 11):                           Questioned Costs (FY 11):           $3,000.00
                        Forfeitures/Seizures (FY 11):                         Unsupported Costs (FY 11):
                                                                         Recommendations for Better Use
                          Estimated Savings (FY 11):                                                          $6,189,140.00
                                                                                       of Funds (FY 11):

                                                                Fiscal Year 2012

                             Monetary Results -Investigations             Monetary Results - Audits, Inspections, Reviews*

                                 Recoveries (FY 12):                           Questioned Costs (FY 12):          $23,127.00
                        Forfeitures/Seizures (FY 12):                         Unsupported Costs (FY 12):
                                                                         Recommendations for Better Use
                          Estimated Savings (FY 12):                                                            $1,385,743
                                                                                       of Funds (FY 12):

                                                          Cumulative Since 2/17/2009
                             Monetary Results -Investigations             Monetary Results - Audits, Inspections, Reviews*

                           Recoveries (cumulative):     $0.00              Questioned Costs (cumulative):    $26,127.00
                                Forfeitures/Seizures
                                                        $0.00            Unsupported Costs (cumulative):       $0.00
                                       (cumulative):
                                                                         Recommendations for Better Use
                    Estimated Savings (cumulative):     $0.00                                               $7,574,883.00
                                                                                 of Funds (cumulative):
Monthly Update Report Data (sheet 3 of 5) Version 5.0a
        Reporting OIG: Department of State - OIG
    Month Ending Date: 3/31/2011

                                              FTE Working on Recovery
                                                                                                                                                                Testimonies:
      Fiscal Year            2009             2010              2011                      2012   Cumulative
       Newly Hired FTE
                             0.00             0.00                 0.00                   0.00      0.00                                                Provided (monthly):        0
           (cumulative):
FTE Funded by Recovery
                             0.08             3.52                 2.52                   0.04      6.16                                              Provided (cumulative):       0
 Act Funds (cumulative):

     FTE Not Funded by
    Recovery Act Funds       0.50             0.65                 0.55                   0.13      1.83
          (cumulative):

              Complaints                             Whistleblower Reprisal Allegations                             Investigations                  Audits / Inspections / Evaluations /         Training / Outreach
             Monthly Data                                      Monthly Data                                         Monthly Data                               Monthly Data                         Monthly Data
                                                                                                                                                                                                 Training Sessions
              Received:       0                                      Received:             0                           Opened (this month):     0     Initiated (this month):      0                                   0
                                                                                                                                                                                                        Provided:
                                                                                                                     Active (as of the end of       In Process (as of the end
                                                                     Accepted:             0                                                    1                                  0          Individuals Trained:     0
                                                                                                                                 the month):                  of the month):
                                                                                                                                                            Completed Final
                                                                                                                                                                                                Hours of Training
                                                                                                                     Closed without Action:     0            Published Work        1                                   0
                                                                                                                                                                                                       Provided:
                                                                                                                                                                    Products:
                                                                                                                                                             Priority Interim
                                                                                                                                                                                               Outreach Sessions
                                                                                                                      Prosecution Declined:     0            Published Work        0                                   0
                                                                                                                                                                                                     Conducted:
                                                                                                                                                                    Products:

                                                                                                                    Referred for Alternative              Unpublished Work
                                                                                                                                                0                                  0
                                                                                                                                 Resolution:                     Products*:

                                                                                                                                Convictions,
                                                                                                                         Settlements, Pleas,    0              QCRs Issued:        0
                                                                                                                                 Judgments:

   Cumulative Data Since 2/17/2009                   Cumulative Data Since 2/17/2009                       Cumulative Data Since 2/17/2009          Cumulative Data Since 2/17/2009        Cumulative Data Since 2/17/2009
                                                                                                                                                          Completed Final
                                                                                                                                                                                                 Training Sessions
              Received:       5                                      Received:             1                         Closed without Action:     2         Published Work       25                                      2
                                                                                                                                                                                                        Provided:
                                                                                                                                                                 Products:
                                                                                                                                                           Priority Interim
                                                                     Accepted:             0                          Prosecution Declined:     0         Published Work        1             Individuals Trained:     35
                                                                                                                                                                 Products:

                                                                                                                    Referred for Alternative              Unpublished Work                      Hours of Training
                                                                                                                                                0                                  0                                   55
                                                                                                                                 Resolution:                     Products*:                            Provided:
                                                                                                                                Convictions,
                                                                                                                                                                                               Outreach Sessions
                                                                                                                         Settlements, Pleas,    0              QCRs Issued:        0                                   5
                                                                                                                                                                                                     Conducted:
                                                                                                                                 Judgments:
                                                                                                                          Cumulative Total:     2         Cumulative Total:       26
Monthly Update Report Data (sheet 4 of 5) Version 5.0a
      Reporting OIG: Department of State - OIG
  Month Ending Date: 03/31/2011

       No.                      OTHER TYPES OF SIGNIFICANT ACTIVITIES (Completed/On-Going During Reporting Month)
                     Issued final ARRA report: Audit of Funding Provided by the American Recovery and Reinvestment Act for the Bureau of
         1
                     Consular Affairs Passport Facilities Project (AUD/CG-12-25)
         2
         3
         4
         5
         6
         7
         8
         9
        10

       No.                             OTHER TYPES OF SIGNIFICANT ACTIVITIES (Planned for Next Three Months)
        1            Close out remaining ARRA-funded contracts
        2
        3
        4
        5
        6
        7
        8
        9
       10
Monthly Update Report Data (sheet 5 of 5) Version 5.0a
  Reporting OIG: Department of State - OIG
   Month Ending
                 03/31/2011
           Date:

                                                                      TRAINING ACTIVITIES
                                                                                                                                           Hours of
                                                                                     Training                   Length of                  Training
                                                 Target                                              Date of                 Number of                   Cost of
     No.               Type of Training                        Title of Training   Location (City,              Training                  Provided
                                                Audience                                             Training               Participants                 Training
                                                                                       State)                    (hours)                   (length x
                                                                                                                                         participants)
      1                                                                                                                                              0
      2                                                                                                                                              0
      3                                                                                                                                              0
      4                                                                                                                                              0
      5                                                                                                                                              0
      6                                                                                                                                              0
      7                                                                                                                                              0
      8                                                                                                                                              0
      9                                                                                                                                              0
      10                                                                                                                                             0
      11                                                                                                                                             0
      12                                                                                                                                             0
      13                                                                                                                                             0
      14                                                                                                                                             0
      15                                                                                                                                             0
                                                                                                                 TOTAL                 0             0

                                             OUTREACH ACTIVITIES
                                                Number of
                                              Organizations                          Outreach
                    Organization to which                     Description of                          Date of
     No.                                      Represented at                       Location (City,
                     Outreach Provided                          Outreach                             Outreach
                                                Outreach                               State)
                                                 Session
       1
       2
       3
       4
       5
       6
